February 19, 2020
VIA OVERNIGHT DELIVERY
Mr. Scott Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Tamko Building Products, Inc. v. Daniel Williams, et al.: No. 19-959

Dear Mr. Harris:
Petitioner Tamko Building Products, Inc. filed its Petition for a Writ of Certiorari
on January 29, 2020. Respondent’s Brief in Opposition is currently due on March 2, 2020.
Respondent respectfully requests, under Rule 30.4 of the Rules of this Court, a 30-day
extension to and including April 1, 2020, within which to file the Brief in Opposition.
This is Respondent’s first motion for an extension. Undersigned counsel has begun
preparation of Respondent’s Brief in Opposition while simultaneously working on several
other briefs with deadlines earlier than March 2, 2020. It has become apparent that the
requested extension is necessary to ensure an opportunity for Respondent’s counsel to
adequately address the Petition for a Writ of Certiorari while satisfying these other
professional commitments.
Thank you for your assistance in this matter. Please do not hesitate to contact me
with any questions you may have.
Cordially,

Karla Gilbride
Counsel of Record for Respondents
cc:

publicjustice.net

Paul D. Clement (Counsel of Record for Petitioner)

National Headquarters
1620 L Street NW, Suite 630, Washington DC 20036
(202) 797-8600 phone • (202) 232-7203 fax

West Coast Office
475 14th Street, Suite 610, Oakland, CA 94612
(510) 622-8150 phone

